Based on RGV’s response to the draft report we revised our finding on NFFS Reporting and
recommendations 1a and 1b. RGV’s new General Manager stated his commitment to
comply with CPB’s requirements and outlined corrective actions addressing financial
matters, Communications Act requirements, and governance issues. Generally, RGV has
agreed to take corrective actions to address our recommendations. RGV’s written response
to the draft report is attached in Exhibit H.

This report presents the conclusions of the Office of Inspector General (OIG). The findings
and recommendations contained in this report do not represent CPB management’s final
position on these matters. CPB management will make final management decisions on the
recommendations in this report in accordance with CPB’s audit resolution procedures.

In accordance with CPB audit resolution procedures, CPB management is responsible for
determining the corrective actions to be taken. Based on RGV’s response to the draft
report, we consider recommendation 6 resolved and closed. We also consider
recommendations 1a, 3, and 7b resolved but open pending a decision by CPB to accept
RGV’s corrective actions. Finally, we consider recommendations 1b, 2, 4, 5, and 7a
unresolved, pending a CPB management decision.


                                     BACKGROUND
RGV Educational Broadcasting, Inc. is a nonprofit corporation, founded on September 19,
1983 in Brownsville, Texas, under the auspices of the Catholic Diocese of Brownsville to
serve the communities of the Rio Grande Valley with Educational TV and Radio
programming.

The Articles of Incorporation of RGV Educational Broadcasting, Inc. states that there is one
class of membership and the sole member of the corporation is the Bishop or Administrator
of the Roman Catholic Diocese of Brownsville, Texas. The Board of Directors (Board)
consists of seven members selected by the Bishop to serve on the Board to oversee KMBH-
TV and KMBH-FM radio operations. The station’s President & Chief Executive Officer
(CEO) manages the daily operations of the television and radio stations.

KMBH-TV signed on the air in October of 1985 supplying the Rio Grande Valley with Public
Broadcasting Service (PBS) programming. KMBH-FM radio started broadcasting in April
1991 and began airing National Public Radio (NPR) programming in June of the same year.

RGV operates KMBH-TV 38, KMBH-FM 88.9, and KHID-FM 88.1 as non-commercial
entities supplying Public Broadcasting to the Rio Grande Valley. RGV Educational
Broadcasting's mission is to provide high-quality, educational, cultural and informational
programming to the valley, and is located in Harlingen, Texas.

CPB awards annual CSG grants based on the total NFFS reported by all stations on their
AFRs. The CSG calculation process starts with separate amounts appropriated for the
television and radio CSG pools adjusted by the base grant, distance, and local service grant


                                              2
amounts. The funds that remain are called the Incentive Grant Pools, one is for television
and the other is for radio. The Incentive Rate of Return (IRR) is calculated by dividing the
Incentive Grant Pools by the total amount of NFFS claimed by all television and radio
stations in the system. The IRR is then multiplied by the station’s reported NFFS to
calculate the incentive award amount of the station’s total CSG. There is a two year lag
between the reported NFFS and CPB’s calculation of the fiscal year’s CSG award amount.
CPB will use the NFFS claimed on KMBH’s FY 2010 AFRs to determine the amount of its
FY 2012 CSG awards to KMBH.

During FY 2010 CPB paid RGV $1,069,235 in grant funds. These grant payments are
itemized by grant type in Exhibit B. RGV’s AFRs for FY 2010 TV and Radio are presented
in Exhibits C and E. NFFS summaries for TV and Radio are presented in Exhibits D and F.
RGV’s FY 2010 financial statement audit reported total revenues of $1,594,006 with
functional expenses of $1,809,334.

The 2009 OIG audit1 of RGV’s FY 2007-2008 operations found significant noncompliance
with Communications Act requirements. Specifically, RGV did not: 1) maintain an operating
Community Advisory Board (CAB); 2) make available required financial and EEO
information for public inspection; and 3) establish written policies on the station’s practices
for complying with donor lists and political activities restriction requirements.

CPB’s management decision resolving the audit report’s recommendations found the
station’s conduct egregious. They cited the station’s long period of noncompliance with
CAB requirements, while annually certifying it was in compliance with all CPB requirements
when applying for new grants. CPB stated that given the seriousness of RGV’s misconduct,
any future noncompliance by the station would be subject to CSG forfeitures retroactively
applied to the violations in the 2009 audit. Further, CPB management required RGV to
demonstrate its compliance on an ongoing basis. Finally, CPB requested the OIG to
conduct a follow-up audit to assess RGV’s compliance.

Since the 2009 audit, RGV has experienced multiple changes in station leadership. In April
2010 the local media reported that RGV’s long standing President & CEO of fourteen years
was reassigned by the Diocese to a full-time parish ministry. The President was replaced by
the former station engineer on an acting basis. Subsequently, in November 2010, the Board
appointed him to the permanent position of President & CEO. Following his appointment,
he eliminated the accounting department and hired the National Educational
Telecommunications Association (NETA) to perform the station’s accounting functions. The
CEO also asked NETA to find a new independent public accountant (IPA) to conduct the FY
2010 financial statements audit.

Most recently, in March 2011 the new President resigned. The Board then appointed the
Underwriting Manager/Marketing Director as Acting Team Leader. During our audit
fieldwork the Acting Team Leader managed the daily operations of the station. RGV hired a
new President & CEO in June 2011.

1
 Audit of CPB Grants Awarded to RGV Educational Broadcasting, Inc., KMBH-TV & FM, Harlingen, Texas, for
Fiscal Years 2007 and 2008, Report No. APJ902-909, Issued September 30, 2009.


                                                   3
                                RESULTS OF REVIEW
We examined management’s assertions of compliance with CPB’s Community Service
Grant (CSG) and other CPB grant agreement terms, Certification of Eligibility requirements,
Communications Act requirements, and CPB’s Financial Reporting Guidelines for claiming
NFFS for the period ending June 30, 2010. Management is responsible for RGV’s
compliance with those requirements. Our responsibility is to express an opinion on
management’s assertions about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, for
attestation engagements, and accordingly included examining, on a test basis, evidence of
RGV’s compliance with those requirements and performing such other procedures as we
considered necessary. We believe that our examination provides a reasonable basis for our
opinion.

Our examination found noncompliance with CPB’s Financial Reporting Guidelines to fully
report digital revenues on its AFRs. In total digital revenues of $1,130,414 were not
reported on the AFRs during FYs 2004-2010.

Further, we found that RGV did not fully comply with stated corrective actions and
Communications Act requirements to maintain copies of required financial and EEO reports
at the station for public inspection.

Finally, our examination identified weaknesses in:

   •   accounting recordkeeping and internal controls; and
   •   governance and oversight practices to ensure corrective actions were fully
       implemented on prior audit findings, as well as, complied with CPB and statutory
       requirements.

In our opinion, except for the findings referenced above, RGV has complied with CPB’s
Certification of Eligibility requirements, Communication Act requirements, and CPB’s
Financial Reporting Guidelines for claiming NFFS. Given the management transitions RGV
has experienced, the issues of noncompliance reported, and RGV’s planned corrective
actions CPB needs to decide whether RGV’s governance structure provides adequate
oversight of station activities to meet statutory requirements of the Public Broadcasting Act
and CPB grant agreement terms.




                                              4
                          FINDINGS AND RECOMMENDATIONS

NFFS Reporting

Our review of the television 2010 AFR found that digital grant revenues of only $137,864
were reported, while RGV received $399,522 during the fiscal year. Further, we found that
since the inception of the digital conversion grant programs in 2004, these were the only
digital revenues reported to CPB. Since 2004 RGV has received $1,343,600 in digital grant
funds from CPB/PBS. Our detailed analysis of RGV revenues is presented in Exhibit G and
identified under-reported public broadcasting revenues of $1,130,144 for FYs 2004-2010.
These grant revenues were reflected in the audited financial statements under temporarily
restricted net assets, but were not reported on the AFRs submitted to CPB. While these
revenues were not reported, they had no effect on reported NFFS.

Section 2 of CPB’s Financial Reporting Guidelines requires all revenue and support
recognized in audited financial statements must be reported on the AFR. Further, CPB
Financial Reporting Guidelines require digital revenues to be reported on the AFR, Schedule
A, Line 2B, to provide complete accountability over public broadcasting revenues received.

Based on NETA’s research of prior year’s accounting practices, presented in Exhibit H,
during FYs 2004-2009 RGV consistently recognized income contingent upon the purchase
and installation of equipment specified in the digital grant agreements, treating the grant
funds as exchange transactions. NETA said that the grant funds should have been treated
as a contribution per Financial Accounting Standards 116. NETA identified that a total of
$1,152,0582 in digital funds were not reported on the AFR. They further explained that the
grant revenues were recognized in the temporarily restricted revenue in the audited financial
statements but were not included on the AFRs.

As background, RGV received the following digital grants from CPB during the period 2004-
2010. The first two grants were administered by PBS with funding provided by CPB.

                                    CPB Digital Funding Grants

        Project Title                             Date         Amount            Net Payments
        KMBH – DDF Round 4 - Transmission        2/25/04           $276,396               $162,359
        KMBH - DDF Round 4.2 – Master Control    10/5/04             500,000               500,000
        KMBH – DDF Round 6 – Master Control      4/12/05             500,000               482,856
        FY06 KHID-FM Digital Conversion Grant   10/25/06              95,521                95,521
        FY06 KMBH-FM Digital Conversion Grant   10/25/06              92,864                92,864
        Supplemental DTV Trans Grants 2009       5/12/09              10,000                10,000
                        Total                                     $1,474,781            $1,343,600


Because of the elimination of the RGV accounting department in 2010, we were not able to
initially determine how RGV recognized digital revenues over the life of these grants. The
2009 audited financial statements indicated that digital revenues were deferred, but we did

2
 The $21,905 difference between the under-reported public broadcasting revenues presented in Exhibit G and
NETA total represents a refund that RGV made on the DDF Round 4 digital grant.


                                                    5
not receive an explanation from RGV officials when digital grant funds were actually
recognized in the financial statements or on the AFRs, until we received RGV’s response to
the draft audit report.

   Recommendations

1) We recommend that CPB management:

   a) require RGV officials to institute appropriate controls to ensure future revenues are
      properly reported in the financial statements and on the AFRs, appropriately reporting
      all public broadcasting revenues on Schedule A, Line 2; and
   b) consider requiring RGV to submit revised AFRs for FYs 2009-2010 to fully account
      for digital revenues released from temporarily restricted assets with the changes
      made by RGV in its financial statement reporting.

   Management Response

In response to the draft report’s recommendations RGV stated that according to NETA’s
research and analysis RGV:

   •   does not owe a refund to CPB;
   •   digital revenues received during FYs 2010, 2004 and 2005 were recognized in the
       accounting system; and
   •   RGV’s financial statements were prepared in accordance with recognized accounting
       standards and GAAP by a certified public accountant using the exchange method of
       accounting, going forward RGV will use the contribution method, and RGV does not
       need to restate its financial statements.

Further, in response to recommendation 1a listed above, RGV stated that it has adequate
financial controls in place, has agreed to switch from the exchange method to the
contribution method of accounting, and hired NETA to do its accounting and prepare its
financial reports.

RGV did not respond to recommendation 1b listed above because this is a new
recommendation added to the final report.

   OIG Review and Comment

Based on RGV’s response, we revised this finding, Exhibit G, and changed the
recommendations contained in the draft report. Based on NETA’s research, we specifically
eliminated that portion on the finding dealing with CPB over-payments. As a result, we
consider recommendation 1a resolved but open pending CPB’s acceptance of RGV’s
actions to rely on NETA to change accounting methods and prepare required CPB financial
reports.




                                             6
Recommendation 1b was added to the final report so RGV did not have the opportunity to
respond to this recommendation. This recommendation is unresolved pending CPB’s final
management decision.


Communications Act Corrective Actions Not Fully Implemented

Our examination found that RGV had not fully implemented all of its agreed to corrective
actions for the 2009 OIG audit report to ensure the station fully complied with
Communications Act requirements. We found that RGV did not have all the required
financial and EEO reports for FY 2010 readily available at the station or on its web site. This
was contrary to RGV’s agreement to implement corrective actions to resolve the OIG’s 2009
audit recommendations.

In response to the 2009 OIG audit, RGV agreed to take corrective actions to comply with all
Communications Act requirements. RGV’s response stated that financial and EEO
information were posted to its website. Further, RGV agreed to include paper copies of the
CPB EEO and the Annual Financial Reports in the files available to the public. We found
that RGV took appropriate corrective actions on the other Communications Act
recommendations. These actions included maintaining an operating Community Advisory
Board, as well as, establishing and implementing written operating policies for its CAB,
reporting EEO information, and Donor List and Political Activities restrictions.

RGV management officials certified its full compliance with the Communications Act
requirements on December 20, 2010 in applying for its 2011 CSG grants. The lack of
available financial and EEO information are statutory violations. This is the second time
over the last two years the station has been in violation of the Act for not having financial
and EEO information readily available to the public in accordance with statutory and CPB
requirements.

       Financial and EEO Reports Not Available for Public Inspection

Our review found that RGV did not have all of the required CPB financial reports and EEO
information readily available at the station for review, as required by CPB guidelines. While
RGV’s audited financial statements and AFRs for a three year period (FYs 2007-2009) were
available in its files and on its web site, the station had not included its FY 2010 audited
financial statements or its FY 2010 AFR3 in its files or on its web site. Additionally the
station did not make available the financial reports submitted to CPB for other funding
agreements, e.g., the Small Station Strategic Planning Grant, or the TV Digital Conversion
Grants in the files. Finally, the station did not make the 2009 OIG audit report available for
public inspection.

The station had the Federal Communication Commission’s (FCC) EEO report available in its
public file. However, the FCC EEO report did not present the information in the format
3
 Subsequent to our site visit the FY 2010 AFRs and audited financial statements were added to KMBH’s
website.


                                                    7
required by CPB. The required CPB EEO information was not readily available at the
station. Further, current staff members were not familiar with how this information could be
retrieved from its electronic SABS filing with CPB.

§ 396(k) (5) of the Act provides that funds may not be distributed to any public
telecommunications entity that does not maintain for public examination the required
financial reports. CPB addresses this requirement in its minimum compliance requirements
by stating that the following documents must be made available for public inspection:

              a) Annual Financial Report (AFR) filed with CPB;
              b) Audited financial statements, and
              c) Information regarding finances submitted to CPB related to any
                 funding agreement with CPB that requires a financial report.

Further, § 396(k) (11) of the Act established that funds may not be distributed to any public
broadcast station, unless the annual EEO statistical report submitted to CPB is available to
the public at the central office and at any location where more than five full-time employees
are regularly assigned to work.

In response to our previous audit report, RGV officials stated that to reduce paperwork, they
made information available about its station on its website. They stated that it also
maintained a computer terminal in the public reference room where the public can access
electronic copies of public file information and request copies to be printed. We found the
station still maintains a computer terminal in the public reference room for the public’s use,
but the FY 2010 financial statement audit and AFR were not posted to its website to be
retrieved electronically at the time of our site visit to the station.

   Recommendations

We recommend that CPB:

2) financially sanction RGV for not fully implementing promised corrective actions to comply
   with Communications Act requirements; and
3) require RGV to fully comply with requirements to make financial (including OIG audit
   reports) and EEO information readily available to the public at the station by including the
   FY 2010 financial statement audit and 2009 OIG audit report on its website or in its file
   made available to the public at the station.

   Management Response

In response to recommendation 2, RGV states the OIG audit report provides no basis to
financially sanction RGV under the Communications Act. RGV properly certified its
compliance with Communications Act in December 2010. The OIG report cites two minor
public file issues that do not rise to the level of a substantial and material compliance issue.
The FCC EEO reports were available in the public inspection file and were posted
prominently on KMBH’s website. CPB’s format for EEO reporting is by law merely



                                                8
supplemental to the FCC EEO reports. RGV agrees to add the CPB format EEO reports to
its files for public inspection. Regarding financial reports, the 2007-2009 reports were in the
public file and on the website. The 2010 financial statements were not available on
December 20, 2010, when RGV certified its eligibility to CPB.

In response to recommendation 3, the FY 2010 financial statement audit was posted to its
website after it become available and during the current audit. RGV agreed to post the OIG
audit report along with RGV’s response.

   OIG Review and Comment

Based on RGV’s response, we consider recommendations 2 unresolved pending CPB’s
management decision. This recommendation addressed CPB’s management decision for
the 2009 OIG audit report, where CPB stated that any future noncompliance with
Communications Act requirements would be subject to CSG forfeitures retroactively applied
to the violation in the 2009 audit.

Based on RGV’s response, we consider recommendation 3 resolved, but open pending
CPB acceptance of RGV’s planned actions. CPB should ensure that RGV actions also
include making other financial reports submitted to CPB available in its files for public
inspection, e.g., the final financial reports submitted to CPB for the digital and other CPB
grants.


Accounting Recordkeeping and Internal Controls

Our review of FY 2010 financial activities found that RGV’s financial records had to be
reconstructed by NETA, when they took over accounting responsibilities in October 2010.
Further, RGV’s IPA issued a qualified opinion on the financial statements, because of the
inadequacy of its accounting records over fixed assets. The IPA’s report said they were
unable to form an opinion regarding the amounts at which property and equipment and
accumulated depreciation were recorded in the statement of financial position. The station
did not have a record of fixed assets or a schedule of depreciation. Further, the IPA
separately reported internal control weaknesses over equipment and property, payment
authorizations, and payment documentation.

CPB’s FY 2010 Television Community Service Grant General Provisions and Eligibility
Criteria, Section 9, B. Record Keeping and Audit Requirements states:

   All recipients of CSG funds must satisfy the requirements of the Communications Act
   of 1934, as amended, 57 U.S.C. 396(l) (30 (B, C, and D). This federal law mandates
   record-keeping and auditing and requires CPB or its representatives have access to
   eligibility, operational, Communications Act (open meetings, open financial records,
   Community Advisory Board, EEO, and mail lists and political activities), and financial
   records…




                                               9
   Furthermore, discrete accounting and proper documentation shall be maintained to
   support all FY 2010 CSG revenues and expenditures. All CSG expenditures must
   meet the test of allowability as stated throughout this document and as provided by
   all other CSG-related documents of policies. CSG funds which cannot be accounted
   for because of recipient’s failure to comply with this requirement may be subject to
   repayment to CPB. The recipient shall maintain such other records that CPB may
   require to facilitate an effective audit. CSG records must be retained for no less than
   three years after the end of the expenditure period.

When NETA took over the station’s accounting responsibilities in October 2010, they could
not find any records recording FY 2010 financial activities for the period July 2010 – October
2010. However, NETA was able to locate the source accounting documents for 2010, so
they reconstructed RGV’s financial statements from the source documents for the period
July 1, 2009 – June 30, 2010 by entering the accounting transactions into NETA’s
accounting system.

The IPA also reported material weaknesses and significant deficiencies in internal controls,
as follows:

   •   a lack of segregation of duties over accounting activities;
   •   the lack of a fixed asset schedule and capitalization policy;
   •   notes payable and interest expense were not accounted for properly;
   •   dual signature controls for disbursements over $5,000 appear to have been
       circumvented;
   •   wire transfers did not require management approval and were not monitored;
   •   disbursement and revenue invoices, agreements and other supporting documentation
       was not readily located, including terminated employees personnel files;
   •   allowance for doubtful accounts were not routinely assessed by management and
       adjusted, as necessary; and
   •   a general lack of a standard and consistent disbursement approval process, including
       credit card approvals.

Our testing of FY 2010 accounting transactions confirmed the IPA’s observations on the lack
of supporting documentation and controls. Specifically, we noted the lack of documentation
supporting employee expense reimbursements and the lack of controls over credit card use.
While we determined that these items were not charged to CPB’s grants, the weaknesses
create an environment vulnerable to abuse.

We attribute these conditions to the changing executive leadership and a lack of adequate
oversight of financial operations to ensure controls were in place and being followed by
station personnel and adequate supporting documentation and records were retained to
support financial activities. The lack of controls and retention of accounting records created
vulnerabilities for abuse and/or loss of funds.

Since NETA took over accounting responsibilities they have instituted additional controls.
NETA is located in South Carolina and has to rely on station personnel to collect


                                              10
contributions and other revenues received by the station and deposit them in a local bank
account. Additionally, NETA relies on station personnel to process vendor invoices and
employee time cards. While we obtained a general understanding of some of these controls
(cash receipts), we did not evaluate the effectiveness of the controls to address the
vulnerabilities referenced above, since the controls were implemented subsequent to our
examination period.

   Recommendations

We recommend that CPB require RGV officials to:

4) address control weaknesses identified by its IPA in conducting its FY 2010 financial
   statement audit;
5) provide CPB with documentation of RGV’s corrective actions implemented in response
   to the IPA’s report on internal controls; and
6) provide CPB with copies of any future management letters RGV receives from its IPA
   regarding internal control weakness.

   Management Response

In response to recommendation 4, RGV stated that it has consistently used a certified public
accountant to prepare its financial statements in accordance with GAAP. RGV is adopting
the accounting controls recommended by its new auditor. Further, RGV will use the
contribution method of accounting in lieu of the exchange method, and prepare
supplemental asset and depreciation schedules.

In response to recommendation 5, RGV stated that NETA analyzed and reconciled the prior
years’ financial reports. Further, RGV’s auditor will follow-up on his prior accounting
recommendations during his current audit.

In response to recommendation 6, RGV stated it did not expect to receive any future letters
regarding internal control weaknesses; however, if RGV receives such a letter, it will provide
CPB with a copy.

   OIG Review and Comment

Based on RGV’s response, we consider recommendations 4 and 5 unresolved until RGV
prepares a schedule of fixed assets and depreciation, as well as, identifies how using
NETA’s accounting services addresses the internal controls weaknesses identified during its
FY 2009 financial statement audit.

Based on RGV’s response, we consider recommendation 6 resolved and closed.




                                              11
Governance

Since CPB issued its management decision in January 2010 addressing the 2009 OIG audit
recommendations, station operations have been in a state of flux. As discussed in our
background section, executive leadership at the station has changed three times over the
last 14 months. The accounting department was eliminated in October of 2010 and station
personnel were not familiar with Communication Act responsibilities regarding making
financial and EEO information available to the public, so agreed to corrective actions were
not fully implemented by RGV. Further, we did not identify any oversight mechanisms used
by the Board to ensure CPB statutory and grant requirements were followed at the station’s
operational level.

Further, our examination found serious issues related to:

   •   accounting recordkeeping, the FY 2010 accounting records had to be reconstructed
       from source documents following the elimination of the accounting department in
       2010;
   •   CPB/PBS digital payments were not fully recognized as revenues in the accounting
       system and accurately reported to CPB on the AFR;
   •   IPA issued a qualified opinion on the financial statements because of the lack of fixed
       asset records; and
   •   IPA reported material weaknesses and significant deficiencies in internal controls.

Collectively, these matters raise concerns over the ability of the station to comply with CPB
requirements and be a responsible grant recipient going forward.

In 2007 the IRS announced a set of voluntary guidelines, or “good governance practices,”
that the IRS recommends tax-exempt organizations use to help maintain regulatory
compliance. These practices include:

   •   Mission Statement
   •   Code of Ethics
   •   Due Diligence
   •   Duty of Loyalty
   •   Transparency
   •   Fundraising Policy
   •   Financial Audits
   •   Compensation Practices
   •   Document Retention Policy

Issues identified in this report are addressed by three of these practices: transparency,
financial audits, and document retention. Transparency practices address ensuring that the
organization’s tax form (Form 990), annual reports, and financial statements (including CPB
financial reporting requirements) are complete and accurate, and made available to the
public upon request. Financial audit practices address Board’s responsibilities to oversee
financial activities and address deficiencies as they arise through the establishment of an



                                              12
audit committee. Document retention practices ensure records are maintained and retained
to meet Federal, state, and other grantor requirements.

The Board has primarily relied on the station’s President & CEO to oversee station
operations without sufficient oversight mechanisms (e.g., accurate financial reporting to CPB
and information on CPB grant compliance requirements) to enable the Board to
independently judge that the station is operating in accordance with the Board’s objectives
and goals, as well as, all statutory and contractual obligations.

We discussed the digital revenue issues with the Board’s Treasurer and the new President,
as well as, the open records requirements during our audit. At the exit conference we again
discussed these issues with the President, General Counsel, and representatives from
NETA. They discussed the corrective actions taken and planned.

   Recommendations

7) We recommend that CPB:

   a) determine whether the current governance mechanisms at RGV are adequate and
      whether the licensee has instituted sufficient corrective actions to continue as a CPB
      grant recipient; and
   b) require RGV to explain how the Board will ensure itself in the future that the station is
      in full compliance with CPB’s TV and Radio Community Service Grant – Certification
      of Eligibility statements annually provided to CPB in applying for new grants.

   Management Response

In response to recommendation 7a, RGV stated that its governance structure is typical of
public broadcasting licensees where the Board selects and supervises management. The
Board replaced the General Manager with a new General Manager. The transition process
was time consuming and the follow-up audit occurred during this transition, which is now
complete and the new General Manager started in June.

In response to recommendation 7b, RGV stated that the General Manager will review with
the Board the annual CPB certification of eligibility and the checklist of compliance items
that RGV must comply with to meet CPB grant requirements. The General Manager will
continue to review RGV’s financial statements with the Board. One Board member is a CPA
and RGV will endeavor to ensure the Board includes at least one CPA.

   OIG Review and Comment

Based on RGV’s response, we consider recommendation 7a unresolved pending CPB’s
management decision whether the actions taken by RGV are sufficient to ensure future
compliance with all CPB grant requirements, including NFFS reporting, financial
recordkeeping, and making financial and EEO records available for public inspection.



                                              13
Based on RGV’s response, we consider recommendation 7b resolved but open pending
CPB’s acceptance of RGV’s planned actions to keep the Board informed on the station’s
compliance with CPB certification and financial reporting requirements.




                                           14
                                                                                    Exhibit A


                            SCOPE AND METHODOLOGY

We conducted our audit in accordance with Government Auditing Standards for
attestation examinations to determine compliance with: Community Service Grant (CSG)
agreement terms, Certification of Eligibility requirements, Communications Act
requirements, and CPB’s Financial Reporting Guidelines for reporting NFFS for the 12
month period ending June 30, 2010. We performed our examination field work during the
period April through May 2011.

In conducting our examination, we reviewed CPB’s grant files and discussed the grants with
CPB officials from the Office of Business Affairs, the Office of Television, and the Office of
Radio. At RGV, we discussed the grants with the Administrative Assistant, the Acting Team
Leader, the General Counsel, and NETA accounting officials.

We reconciled the financial data maintained by NETA in its accounting records by grant type
to the expenses it reported to CPB on its AFR for both TV and Radio. We tested the
accuracy of grant expenditures reported by performing financial reconciliations and
comparisons to underlying accounting records and the audited financial statements to verify
the accuracy of transactions recorded in the general ledger and reported on the AFR to
CPB.

We also evaluated compliance with the grant agreement terms, in part, by testing a
judgmental sample against supporting documentation maintained by NETA. We tested
expenditures totaling $1,015,796 of $1,499,415 reported on the AFR, Schedule E. The
transactions tested included a variety of expenditure types e.g., PBS and NPR among other
suppliers of programming, programming and broadcast costs, payroll, and travel expenses.

We also reviewed documentation of RGV’s compliance with applicable provisions of the
Communications Act. Specifically, we reviewed RGV’s public inspection files and other
records to verify that it maintained all the information required by the Act, as well as, RGV’s
compliance with EEO grant agreement terms.

We gained an understanding of the internal controls over the preparation of cash receipts,
payment authorizations, and payroll preparation to plan our substantive testing. We tested
the AFR reports and reconciled them to the audited financial statements.

Further, to obtain reasonable assurance that financial reports submitted to CPB were
free of material misstatements, we performed tests of compliance with certain provisions of
law and grant agreement requirements, when noncompliance could have a direct and
material effect on the AFR report. We tested revenues totaling $1,084,204 of $1,338,456
reported on the AFR, Schedule A. Based on the results of our FY 2010 revenue testing, we
expanded our review of the reporting of digital revenues received and reported on the AFRs,
Schedule A, Line 2B for the period 2004-2009 for both TV and Radio.


                                               15
To assist in our audit planning and assure ourselves that we could rely on the work
performed by RGV’s IPA, we discussed and reviewed the IPA’s internal control and fraud
risk assessment working papers, as well as, its financial statement and attestation work.




                                             16
                                                                                      Exhibit B


                       Schedule of CPB Payments to RGV
                  For Community Service, Digital Conversion, Fiscal
               Stabilization and Small Station Strategic Planning Grants
                                (July 1, 2009 – June 30, 2010)


Payment Date               Grant Type                   Unrestricted   Restricted     Total

   9/28/09      Small Station Strategic Planning                          $11,000      $11,000
  11/18/09      FY 10 TV Local Service                      $110,828                   110,828
  11/18/09      FY 10 TV CSG                                 269,316                   269,316
  11/18/09      FT 10 TV Interconnection                       5,372                     5,372
  11/18/09      FY 10 Radio CSG Unrestricted                  37,889                    37,889
  11/18/09      FY 10 Radio CSG Restricted                                 13,528       13,528
   1/13/10      TV Fiscal Stabilization Grant                 53,644                    53,644
   1/13/10      Radio Fiscal Stabilization Grant               8,699                     8,699
   1/25/10      DDF Round 6                                               232,856      232,856
   2/22/10      FY 10 TV CSG                                 269,315                   269,315
   2/22/10      FT 10 TV Interconnection                       5,371                     5,371
   2/22/10      FY 10 Radio CSG Unrestricted                  37,889                    37,889
   2/22/10      FY 10 Radio CSG Restricted                                  13,528      13,528

                          Total Grants                      $798,323     $270,912    $1,069,235




                                                   17
                                                                          Exhibit C


          KMBH-TV Annual Financial Report
                     Year Ending June 30, 2010


Line                       Description                     2010

        Schedule A, Source of Income:
1.      Amounts provided directly by federal government             $0
2.      Amounts provided by Public Broadcasting Entities    $852,360
2.A.    CPB-CSG                                              538,631
2.B.    CPB-digital Project Grants                           137,864
2.C.    CPB-Restricted CSG                                           0
2.D.    CPB-TV Interconnection grants                         10,743
2.E.    CPB-all other funds                                  164,472
2.F.    PBS                                                        650
        Local boards & departments of education or other
3.      local government or agency sources                    92,469
8.      Foundation and nonprofit associations                190,120
9.      Business and Industry                                124,373
        How much of the revenue was received as
9a.     underwriting?                                         47,440
        Exclusions                                            76,933
10.     Memberships and subscriptions                         65,249
14.A.   Gross special fundraising activities                         0
15.     Passive Income                                            2,765
15.A.   Interest and dividends                                    2,465
15.B    Royalties                                                  300
18.     Capital fund contributions                                   0
20.     Other Direct Revenue                                  11,120
21.     Total Revenue                                      $1,338,456


         Adjustments to Revenue
22.     Federal revenue                                             $0
23.     Public broadcasting revenue                          852,360
25.     Other revenue on line 21                              88,053
27.     Total Direct Nonfederal Financial Support           $398,043


        Schedule C
1.      Professional Services                                       $0
2.      General Operational Services                              3,250
3.      Other Services                                               0
4.      Total in-kind contributions eligible as NFFS              3,250
5.      In-kind contributions ineligible as NFFS                  3,377
6.      Total in-kind contributions                           $6,627




                                      18
                                                                                              Exhibit C-1


                             KMBH-TV Annual Financial Report
                                      Year Ending June 30, 2010

                    Line                      Description                          2010

                           Schedule E, Expenses:
                            Program Services
                   1       Programming and production                             $592,089
                   2       Broadcasting and engineering                            289,305
                   3       Program information and promotion                             0
                            Support Services
                   4       Management and general                                  303,619
                   5       Fund raising and membership development                  21,637
                   6       Underwriting and grant solicitation                        5,133
                   7       Depreciation and amortization                            287,632
                   8.      Total Expenses                                        $1,499,415

                           Investment in Capital Assets
                   9.      Total capital assets purchased or donated                     $0
                           Total expenses & investment in capital assets         $1,499,415

                           Additional Information
                   11.     Total expenses (direct only)                          $1,495,438
                   12.     Total expenses (indirect and in-kind)                      3,977
                   13.     Investment in capital assets (direct only)                     0
                   14.     Investment in capital assets (indirect and in-kind)            0

                           Schedule F4
                   1.      Data from AFR
                   1.a.    Schedule A                                            $1,586,239
                   1.b.    Schedule B                                                     0
                   1.c.    Schedule C                                                 7,767
                   1.d.    Schedule D                                                     0
                   1.e.    Total from AFR                                        $1,594,006




4
    Schedule F AFR totals includes KMBH-FM revenues.


                                                      19
                                                                   Exhibit D


    Summary of Non-Federal Financial Support 2010
                     KMBH-TV
Certification by Head of Grantee and Independent Accountant’s Report


    Line                  Description                   2010

           Summary of Non-Federal Financial Support:
    1      Direct Revenue (Schedule A)                 $398,043
    2      Indirect Administrative (Schedule B)               0
    3      In-Kind Contributions (Schedule C)
    3a       Services and Other Assets (Schedule C)       3,250
    3b       Property and Equipment (Schedule D)              0
    4      Total Non-Federal Financial Support         $401,293




                                 20
                                                                          Exhibit E


         KMBH-FM Annual Financial Report
                     Year Ending June 30, 2010


Line                       Description                     2010

        Schedule A, Source of Income:
1.      Amounts provided directly by federal government             $0
2.      Amounts provided by Public Broadcasting Entities    $111,533
2.A.    CPB-CSG                                               75,778
2.B.    CPB-digital Project Grants                                   0
2.C.    CPB-Restricted CSG                                    27,056
2.D.    CPB-TV Interconnection grants                                0
2.E.    CPB-all other funds                                       8,699
2.F.    PBS                                                          0
        Local boards & departments of education or other
3.      local government or agency sources                           0
8.      Foundation and nonprofit associations                 52,812
9.      Business and Industry                                 58,318
        How much of the revenue was received as
9a.     underwriting?                                         58,318
        Exclusions                                                   0
10.     Memberships and subscriptions                         24,298
14.A.   Gross special fundraising activities                         0
15.     Passive Income                                             822
15.A.   Interest and dividends                                     822
15.B    Royalties                                                    0
18.     Capital fund contributions                                   0
20.     Other Direct Revenue                                         0
21.     Total Revenue                                       $247,783


         Adjustments to Revenue
22.     Federal revenue                                             $0
23.     Public broadcasting revenue                          111,533
25.     Other revenue on line 21                                     0
27.     Total Direct Nonfederal Financial Support           $136,250


        Schedule C
1.      Professional Services                                       $0
2.      General Operational Services                                 0
3.      Other Services                                               0
4.      Total in-kind contributions eligible as NFFS                $0
5.      In-kind contributions ineligible as NFFS                  1,140
6.      Total in-kind contributions                           $1,140




                                      21
                                                                                           Exhibit E-1


                           KMBH-FM Annual Financial Report
                                     Year Ending June 30, 2010

                  Line                       Description                        2010

                          Schedule E, Expenses:
                           Program Services
                 1.       Programming and production                            $126,296
                 2.       Broadcasting and engineering                            38,434
                 3.       Program information and promotion                            0
                           Support Services
                 4.       Management and general5                                142,885
                 5.       Fund raising and membership development                  1,842
                 6.       Underwriting and grant solicitation                        461
                 7.       Depreciation and amortization                           24,197
                 8..      Total Expenses                                        $334,115

                          Investment in Capital Assets
                 9.       Total capital assets purchased or donated                   $0
                          Total expenses & investment in capital assets         $334,115

                          Additional Information
                 11.      Total expenses (direct only)                          $332,975
                 12.      Total expenses (indirect and in-kind)                    1,140
                 13.      Investment in capital assets (direct only)                   0
                 14.      Investment in capital assets (indirect and in-kind)          0




5
 Management and general expense total includes duplicate depreciation expenses of $24,197, separately
reported on line 7.


                                                     22
                                                                    Exhibit F


      Summary of Non-Federal Financial Support 2010
                      KMBH-FM
Certification by Head of Grantee and Independent Accountant’s Report


      Line                  Description                  2010

             Summary of Non-Federal Financial Support:
      1      Direct Revenue (Schedule A)                 $136,250
      2      Indirect Administrative (Schedule B)               0
      3      In-Kind Contributions (Schedule C)
      3a       Services and Other Assets (Schedule C)           0
      3b       Property and Equipment (Schedule D)              0
      4      Total Non-Federal Financial Support         $136,250




                                   23
                                                                                                                                        Exhibit G


                                      Analysis of AFR Reporting and CPB Revenues Received

                 Source of Income                   2010        2009         2008          2007        2006          2005        2004        Total

AFR Information:
 2.A. CPB-Community Service Grants (TV & Radio)    $614,409     $573,076     $573,175      $591,573    $635,103     $686,410     $579,533    $4,253,279
 2.B. CPB-Digital Project Grants                   $137,864            $0            $0           $0          $0            $0          $0    $137,864
 2.C. CPB-Restricted Radio CSG                      $27,056      $20,904         $27,487    $28,662     $30,560             $0          $0    $134,669
 2.D. CPB-TV Interconnection Grants                 $10,743      $10,554         $10,629    $10,676     $11,061      $11,671      $10,368      $75,702
 2.E. CPB-all other funds                          $173,171     $121,389     $149,948      $135,256    $106,159     $105,720     $141,650     $933,293
          Total CPB Revenues Reported              $963,243     $725,923     $761,239      $766,167    $782,883     $803,801     $731,551    $5,534,807


CPB & PBS Digital Payments to KMBH:
CPB All Grants                                    $1,069,235    $727,423     $849,424      $811,467    $826,783    $1,018,718    $699,552    $6,002,602
PBS Digital Grants (only)                          $166,666            $0            $0           $0          $0    $333,334     $184,254     $684,254
                  Total Payments                  $1,235,901    $727,423     $849,424      $811,467    $826,783    $1,352,052    $883,806    $6,686,856


    AFR Under-Reported per NETA Research           $272,658       $1,500         $88,185    $45,300     $43,900     $548,251     $152,255    $1,152,049


KMBH TV Refund on DDF 4 Grant                              $0          $0    ($21,905)            $0          $0            $0          $0    ($21,905)


      Net Under-Reported Digital Revenues          $272,658       $1,500         $66,280    $45,300     $43,900     $548,251     $152,255    $1,130,144




                                                                            24
